<html>
<title> - DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-8]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 109-8
 
  DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2006

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                             MARCH 9, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
20-175                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
               Gordon Lederman, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Holly A. Idelson, Minority Counsel
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Warner...............................................     4
    Senator Lautenberg...........................................    10
    Senator Pryor................................................    13
    Senator Coleman..............................................    15
    Senator Levin................................................    17
    Senator Dayton...............................................    19
    Senator Carper...............................................    30

                                WITNESS
                        Wednesday, March 9, 2005

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     5
    Prepared statement...........................................    33
    Questions and responses for the Record from Secretary 
      Chertoff...................................................    48


  DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        WEDNESDAY, MARCH 9, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Warner, Lautenberg, 
Pryor, Coleman, Levin, Dayton, and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    The Committee faces a dilemma today. We have four stacked 
votes at 11:30, and our witness, Secretary Chertoff, has to 
leave around 1 o'clock. For that reason, I am going to greatly 
abbreviate my opening remarks, and I hope that my colleague 
from Connecticut will greatly abbreviate his opening remarks as 
well, so that we can get as many questions in as possible 
before we have to adjourn for the votes.
    Today the Committee will review the Department of Homeland 
Security's budget submission for fiscal year 2006, and it is a 
great pleasure to welcome Secretary Chertoff to his first 
official appearance before the Committee since his 
confirmation. We hope that this budget hearing will not be so 
arduous that you now regret your decision, for which we all 
praised you, to give up your prestigious lifetime appointment 
as a Federal judge.
    The Administration's proposed Homeland Security budget of 
$41.1 billion represents a 7-percent increase and recognizes 
that we have yet to address a great many homeland security 
threats and vulnerabilities. I applaud many of the initiatives 
targeted for increased spending in this budget, such as 
directing more resources to develop and deploy technology that 
can detect chemical, biological, and nuclear weapons, and to 
enhance the Immigration and Customs Enforcement Bureau.
    In addition, I am pleased that the budget proposes to bring 
together the various screening activities within the Department 
under a new Office of Screening Coordination and Operations. It 
would also consolidate research, development, testing, and 
evaluation activities of the Science and Technology 
Directorate. Again, I think all of these are proposals that 
will increase efficiency, eliminate duplication of effort, and 
help to promote integration and unity within the Department.
    At the same time, however, I find several provisions to be 
very troubling. The proposed cut of more than 30 percent in 
State homeland security grant programs in addition to the 
proposed cuts in other programs for first responders short-
change those on the front lines in the war on terrorism. The 
attacks of September 11 were directed against two great centers 
of our Nation's financial and military power. But we all know 
that the enemy we face is nothing if not opportunistic. The 
enemy relishes the element of surprise and, thus, will strike 
wherever we leave ourselves vulnerable. The September 11 
terrorists planned and trained in small cities and towns 
throughout the Nation. Two of the hijackers, including the ring 
leader, departed for their journey of death and destruction 
from Portland, Maine. Terrorist cells and financing operations 
have been uncovered in smaller communities. From farms and 
feedlots to power plants and chemical facilities, the entire 
length and breadth of our Nation offers targets of interest to 
the terrorists. All States must receive a fair share of 
funding, and that funding must be delivered in a way that will 
allow States to apply it with the flexibility that local 
circumstances require. At the same time, we all recognize that 
certain areas in this country are at greater risk, and they do 
deserve additional funding. But as I have said many times, you 
cannot simply look at population and population density and 
equate them with risk and threat. Last month, Senators Carper, 
Lieberman, Coleman, and several other Members of this 
Committee, and I reintroduced the Homeland Security Grant 
Enhancement Act, which in my view provides a flexible and fair 
formula.
    I am also concerned that the budget eliminates the 
technology transfer grant program. It gets needed anti-
terrorism and homeland security technology into the hands of 
law enforcement and first responders quickly and efficiently, 
and I believe it should be restored.
    I remain concerned about the underfunding of our port 
security. Incidents of human smuggling aboard cargo containers 
are becoming increasingly commonplace, and the interdictions 
that result more from chance than from any coherent policy are 
cause for concern. The lack of a separate line item in this 
budget for port security grants does not reflect the importance 
of international trade to our economy and the vulnerability of 
these ports. In addition, the Coast Guard is one of our best 
defenses, yet the deep water modernization program remains 
underfunded.
    I realize that this budget does not necessarily reflect the 
Secretary's personal views and priorities as it was constructed 
prior to his nomination. I hope, therefore, that the Secretary 
will listen carefully to the concerns raised today as he 
presents what I am sure will be a vigorous defense of a budget 
that he inherited rather than drew up.
    Senator Lieberman.
    Senator Lieberman. Nicely done, Madam Chairman. [Laughter.]

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much. It is an honor and 
a pleasure to address you, Mr. Chertoff, for the first time as 
Mr. Secretary and to welcome you here in that capacity.
    Not long ago, Porter Goss, the Director of the CIA, told 
the Senate Intelligence Committee that, ``It may only be a 
matter of time,'' before terrorists try to attack us with 
weapons of mass destruction. And I know that he meant here at 
home.
    At the same hearing, FBI Director Bob Mueller warned of 
possible terrorist operations now under way within our borders 
and said finding such terrorists is ``one of the most difficult 
challenges'' his organization faces.
    Protecting Americans from these potential terrorist attacks 
is your responsibility and ours as we share it with you, and it 
cannot be done on the cheap. Yet in its fiscal year 2006 budget 
proposal for the Department of Homeland Security, the 
Administration, in my opinion, has underestimated what it will 
take to keep our citizens as safe as possible here at home. 
There are increases, but they are modest: Only a 3- to 4-
percent increase in DHS discretionary spending after inflation, 
and even that increase largely depends on the adoption by 
Congress of a controversial airline ticket fee. And that 
adoption, frankly, may or may not occur.
    More important, the increases pale by comparison to what 
experts have told our Committee is necessary. And some key 
homeland security funding that was authorized by the 
Intelligence Reform and Terrorist Prevention Act, the so-called 
9/11 legislation, signed into law by the President last 
November, has simply been ignored.
    That, I am afraid, leaves us with too many gaps in our 
defenses, gaps that range from the inability of first 
responders to communicate between their own agencies and 
jurisdictions, to a lack of preparedness for a biological 
attack, to inadequately defended train, railway, and highway 
transportation networks.
    So what do I think needs to be done? I have done some work 
with my staff on this, and the result is a letter that I have 
submitted to the Senate Budget Committee, whose contents I have 
shared with your office. In that letter I have proposed $8.4 
billion in increases in the budget for homeland security 
governmentwide. Of that amount, $6.3 billion would be for 
programs within the Department of Homeland Security, and that 
is over and above the President's proposed $2.5 billion 
increase. I know that is a significant amount of money in a 
time of budget pressure, though it remains a relatively small, 
an extremely small percentage of the $2.57 trillion overall 
Federal budget. That is an $8.4 billion add-on to a $2.57 
trillion budget.
    About half of the increase that I am proposing in the DHS 
budget would go for training, equipment, and support for first 
responders because, as you know, and I believe you agree--I am 
confident you agree--these first responders are not only that; 
they are hundreds of thousands of first preventers against a 
terrorist attack all around the country.
    A significant portion of what I am recommending here would 
be invested in interoperable communications equipment to allow 
first responders from different agencies and different 
jurisdictions to speak to one another during a crisis, which we 
know they were not able to do on September 11. I frankly do not 
understand why the Administration is seeking to cut first 
responder programs by $565 million in your Department and a 
truly jarring $1.7 billion governmentwide, which is to say that 
includes programs recommended for cuts particularly in the 
Justice Department, the COPS program, the Byrne grant program.
    Homeland security expert Steve Flynn, as you know, a former 
Coast Guard commandant, describes our predicament in his recent 
book, ``American the Vulnerable--How Our Government is Failing 
to Protect Us From Terrorism.'' He says, and I quote briefly, 
``Homeland security has entered our post-9/11 lexicon, but 
homeland insecurity remains the abiding reality. With the 
exception of airports, much of what is critical in our way of 
life remains unprotected.''
    Mr. Flynn further points out that homeland security 
spending is still very small compared to the overall Pentagon 
budget. Now, as a member of the Armed Services Committee, as 
all three of us here at this moment are, I am a strong 
supporter of the Pentagon budget. Mr. Flynn says that that 
discrepancy suggests that the Federal Government continues to 
believe that our primary terrorist threat will be found outside 
our borders. We know that the threat from terrorism is both 
outside our borders and, self-evidently and in some senses most 
menacingly, within our borders.
    So I think we have to listen to the security experts who 
tell us that this terrorist threat is one we unfortunately must 
live with and defend against at home and abroad for the 
indefinite future. And we must listen to the experts who say we 
should match the threat at home and abroad with the resources 
necessary to vanquish it.
    Mr. Secretary, I note you are already hard at work 
examining the operations of your Department and the resources 
available to it. I look forward to hearing from you this 
morning about how together we can close our country's 
continuing insecurity gap.
    Thank you very much.
    Chairman Collins. Thank you, Senator Lieberman.
    My plan was to turn to our witness for a statement, but the 
distinguished Chairman of the Armed Services Committee and a 
Member of this Committee has joined us. Senator Warner, if you 
want to make some brief comments, feel free.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Madam Chairman, and 
our distinguished Ranking Member, Senator Lieberman.
    Judge, the honeymoon is over, as you can hear from the 
opening statements. But I would like to inquire as to what time 
the Chairman might consider having the Committee vote on the 
nomination of Mr. Jackson. I would like to be present. We do 
have three stacked votes. It could be off the floor.
    Chairman Collins. We will probably end up doing that off 
the floor. If, however, a quorum appears prior to our going to 
the floor for the stacked votes, we will do it at that time.
    Senator Warner. Thank you.
    Chairman Collins. Thank you. Senator Lautenberg, we are 
going to dispense with opening statements because of the 
stacked votes, but I want to make sure everybody gets a chance 
to question, so I just wanted to explain that is why----
    Senator Lautenberg. Thank you. I would not think, Madam 
Chairman, that it was discriminatory, and I appreciate the 
message.
    Chairman Collins. Thank you. Secretary Chertoff, you may 
proceed.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Senator Collins, Senator 
Lieberman, and Members of the Committee. I will also cut my 
statement even further in the interest of saving time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    I am pleased to be back in front of this Committee as 
Secretary of Homeland Security. I appreciate your support 
through the confirmation process, and I look forward to working 
with you in the months and years to come.
    I thought I would simply make two points in my opening 
statement. One is to indicate that I have initiated a 
comprehensive review of the Department to better understand 
what is working and what is not. This is going to involve 
evaluating every element of our working mission and making sure 
that the organization of the Department and its operations 
conform with the threat, not vice versa; that we do not look at 
the threat in terms of our existing stovepipes.
    Our philosophy, our decisionmaking, and our operational 
activities have to be grounded in risk management as we 
determine how to best prevent, respond, and recover, if 
necessary, from attacks. So we have to analyze the threats and 
our mission and then adapt the organization and our operations 
and policies to meet those threats and carry out that mission, 
not vice versa.
    Now, a second point I would make, as you said, Madam 
Chairwoman, is that the President has affirmed again his 
staunch commitment to the Department with an increase of 7 
percent in the 2006 budget over the prior year of $41.1 billion 
in resources. There are in this budget some critical structural 
changes: The establishment of a screening coordination office 
and a domestic nuclear detection office. And we are going to 
continue to work to protect our borders, strengthen law 
enforcement, leverage technology, improve preparedness and 
response, and streamline a 21st Century Department. At the same 
time, we will continue to recognize the Department's historical 
functions, including responding to natural disasters, securing 
our coasts, and providing immigration services and enforcement, 
as we have traditionally done.
    This Committee has supported and taken a very deep interest 
in the Department, and I welcome that. I look forward to the 
opportunity in the coming months to engage with Members of this 
Committee as we refine our ideas and our recommendations about 
how to best achieve homeland security. Our shared goal is an 
America that is safe and secure and also true to our 
fundamental values and civil liberties.
    Thank you, and I look forward to answering questions.
    Chairman Collins. Thank you very much, Mr. Secretary. We 
appreciate your abbreviating your statement so that we can get 
right to questions.
    I want to follow up on the comments I made and that Senator 
Lieberman made as well in our opening statements about the 
funding for the homeland security grant programs. Former 
Secretary Ridge often correctly said that homeland security 
begins with hometown security. When disaster strikes, our 
citizens do not call the Washington, DC, area code. They dial 
911. And it is our police officers, our firefighters, and our 
emergency medical personnel who are always first on the scene. 
They truly are the front lines in the war against terrorism.
    States and communities have made progress over the past few 
years in improving their preparedness, but they still have 
enormous needs. For example, the lack of compatible 
communications equipment, which was cited by the 9/11 
Commission, remains a major problem, and it is one that the 
Ranking Member and I have introduced legislation to try to 
address. And it is a very costly problem to solve.
    Yet the Administration's budget would cut and reshape the 
basic grant programs such that smaller States could see as much 
as an 80-percent decrease in the amount of baseline funding 
that they could count on. That is not just a small drop. That 
is a leap off the cliff.
    I am very concerned that those proposed reductions also 
come at a time when the Department is about to issue 
preparedness standards for States that are pursuant to Homeland 
Security Presidential Directive No. 8. And the purpose of this 
directive, is ``to strengthen preparedness capabilities in 
Federal, State, and local entities, and to help the entities 
meet new domestic all-hazards preparedness goals.''
    How can you expect States and localities to meet these new 
preparedness standards to solve the problem of the 
interoperability of communications equipment and to continue 
their progress with a budget that proposes to drastically slash 
the baseline funding that States and communities can count on?
    Secretary Chertoff. Senator, I think there are a number of 
principles that we want to observe in our handling of funding, 
which I think are things I alluded to when I was testifying 
here last time. We need to be risk-based, and that means 
looking at threats, consequences, and vulnerabilities. And 
those characteristics do not necessarily arise in large or 
small States per se. They depend on a whole host of 
characteristics: The nature of the infrastructure we are 
worried about, the exposure and proximity to borders, 
historical information from intelligence about what kinds of 
areas are targets.
    I think, in general, the budget drives increasingly towards 
a model of funding and grant-making and deployment of resources 
that is focused on this overall strategic analysis under these 
three heads.
    I think, therefore, it is kind of hard on an abstract level 
to say that certain States are going to do better or certain 
States are going to do worse because frankly the issue is not 
where State lines are drawn. The issue is where are the 
vulnerabilities and what are the consequences. If there is a 
power plant, for example, that serves a number of States and it 
is located in a small State, that may very well require some 
funding and some support because there is a major consequence 
if something happens, and there may be major vulnerabilities.
    Obviously, therefore, we have to be the most effective we 
can in terms of deploying what are necessarily finite 
resources. One thing we want to encourage in the grant-making 
process is shared services, and I think we have already built 
this in, and I want to continue to move forward on this.
    The fact of the matter is not every community, for example, 
needs to have one hazmat suit. That does not do anybody any 
good. What is useful is when communities in a particular area 
can pool their operations so that they can centralize a 
response team, and then we could give hazmat suits to that team 
that might be located in one community, it might be done 
through a county, and then get service over an entire area.
    So what we are looking for is trying to maximize the way we 
use resources to get the most effective deployment and, again, 
to always be focused on where are the greatest potential 
negative consequences, where are we most vulnerable, and where 
are the threats.
    Chairman Collins. Well, I would say to you that the 
problem, however, with reducing the small-State minimum by such 
a dramatic amount is that States cannot count on a certain 
level of funding other than one that is dramatically below what 
they now receive. Instead, there is going to be what appears at 
this point to be a very ill-defined process for sorting out 
risk and threat vulnerabilities. And I agree that we certainly 
need to focus more of the funding, but I think that, to so 
dramatically reduce the small-State minimum, all you are going 
to do is create new vulnerabilities.
    This Committee last year had a hearing on agroterrorism, an 
issue that has not gotten much attention, but which Secretary 
Tommy Thompson cited as he was departing his post. We cannot 
assume that the threat is concentrated just in large urban 
areas, and we have to assume that the terrorists are smart 
enough to figure out where we are not putting the resources.
    So I think we need to proceed very carefully, particularly 
as the Department is imposing new preparedness standards that 
every State, regardless of its size or population, will be 
required to meet.
    Secretary Chertoff. I completely agree with that, and I 
think that the example you give is actually a really good one. 
It might turn out, based on food distribution, for example, 
that there are risks in a particular State, perhaps a small 
State, that happens to be the place where there is food 
distribution that covers a wide area. And for that reason, that 
State could benefit under our risk analysis approach because we 
would identify the consequence of something happening, the 
vulnerability, and the threat. And that is why I quite agree we 
need to move away from a population-driven or size-of-state-
driven model to one which really focuses on what I think there 
is general agreement, which is that we ought to be focused on 
risk. And the winners and losers there will depend on what the 
facts are and not on what some predetermined, cookie-cutter 
formula tells us.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman.
    Secretary Chertoff, in the past this Administration has 
been reluctant to recommend and allocate funds for rail and 
transit security. Indeed, in last year's budget, fiscal year 
2005, in the budget proposal, there were no dedicated grant 
programs for non-aviation security. Congress in a bipartisan 
way rose up and adopted $150 million in rail and transit 
security grants.
    In this budget, the Administration has essentially taken 
that $150 million and put it together with a series of other 
grant programs in the so-called TIP, Targeted Infrastructure 
Protection program, which it will be your responsibility to 
allocate. But all that will have to go not only for rail and 
non-aviation transit, but for things like port security grants.
    So I feel point-blank that we are not giving enough--we are 
not investing enough in the security of non-aviation modes of 
transportation--and I particularly say it after the Madrid 
train bombings and other indications that we have that 
terrorists may be tempted to strike at non-aviation 
transportation, particularly rail, here in the United States.
    So I want to ask you: As you come in, what is your 
philosophy about the Federal Government's role in ensuring rail 
and transit security and what do you hope the Department's 
action will be in that regard?
    Secretary Chertoff. I appreciate the opportunity to talk 
about that, Senator. Let me first begin by harking back to my 
statement about doing this comprehensive review because part of 
my philosophy going into this is that we have various 
components that are focused on types of threats, we have 
various funding programs, but I want to step back and look at 
not where we have the money now and where we have the 
jurisdictional lines now, but first, where are the actual 
threats and where are the actual consequences and 
vulnerabilities.
    Clearly, transportation of a non-aviation kind is 
historically an area that has been subject to threat and is one 
which plays a very important role in our national 
infrastructure. So I want to analyze across the board, without 
regard to what particular box we are talking about, how we deal 
with the whole gamut of threats. Some of these issues involve 
how we deal with cargo, for example, that may be currently 
handled under CBP. Some of them deal with fixed infrastructure. 
Some of them may deal with rolling stock. Some of them are 
private-party issues.
    Once we look at that, I think we have a strategy we can put 
on top of that as an overlay the way we are currently 
organized, and that is one of the reasons I feel that in the 
next 60 to 90 days as we do this evaluation, we may get a 
better idea of things we could do to align our structure and 
our operations with these missions, such as, for example, non-
aviation security.
    Every type of transportation presents its own issues. Cars 
and trucks, for example, are essentially heavily operated by 
the private sector, and so private sector involvement is very 
important there. We are doing things with respect to rail where 
we have pilot programs with respect to explosives. We have 
other kinds of enhancements. And there we have obviously much 
more government involvement, including, frankly, State and 
local government.
    So I would like to be able to say at the end of this 
process that we are headed in a direction of, again, increasing 
the way we deploy our resources and our money in an 
analytically sound and transparent way so that I can come to 
you at some point and say, ``look, we are doing this because we 
have the following intelligence and we have made the following 
evaluations, and we are being consistent and complementary 
across the board.''
    Senator Lieberman. I appreciate that. I urge you to do it. 
I am sure you will do it, anyway, approach that view with the 
sense of urgency that the reality of the threat justifies. And 
I urge that we work together on this Committee with you on it.
    I want to just pick up and mention, in a related matter to 
the topic that the Chairman was talking about, the Urban Area 
Security Initiative, a really important program. And what 
troubles me, as I have said to you privately, is that the 
Department now administers the program in such a way that there 
is a threshold of population of 225,000 in a city before it can 
qualify for funding under this program. And that just does not 
make sense to me because there are some--this is slightly 
different from what the Chairman was saying--there are clearly 
some smaller cities in which there are real targets for 
terrorism. And I urge you to review that requirement and 
basically make a threat assessment free of an arbitrary 
threshold.
    I welcome any comment. If not, I am happy to go on and----
    Secretary Chertoff. I will certainly look at that issue. I 
think it is important.
    Senator Lieberman. Good. Finally, the 9/11 bill did 
include, as I mentioned in my opening statement, a number of 
authorizations which at this point the President's budget does 
not respond to. And some of them are really quite critical, and 
I hope are now coming in. I understand the turnaround time 
between budget preparation and submission and the 9/11 
legislation adoption was not long. But these go to equipment 
that is necessary for transportation security, and the one I 
want to ask you about, finally, is border security.
    The 9/11 legislation authorized 2,000 new Border Patrol 
agents. The Administration's budget would fund about 200 
positions, which I understand to be replacement for agents that 
were deployed from the Southern border to the Northern border 
in response to congressional mandates to increase Northern 
border protection. In my own letter to the Budget Committee, 
which I referred to earlier, I recommended an increase in 
funding to allow for a thousand new Border Patrol agents 
because the best evidence I had was that it would be impossible 
to really find, train, and hire more than that number in this 
year.
    Would you support an effort to increase funding for the 
Border Patrol agents that we have working for us in that 
critical function, antiterrorism function?
    Secretary Chertoff. Well, of course, protection of the 
border is critical, and it has to be part of a comprehensive 
strategy. As you know, the President has advanced the idea of a 
temporary worker program, and I think that fits well with the 
enforcement notion, the idea being that by reducing pressure on 
the border from those who really do not want to do us any harm, 
we then can deploy our resources more effectively against those 
who do.
    As I understand it, this 210 additional Border Patrol slots 
represent a net increase. In other words, it does not merely 
backfill, but it actually raises the bar. So it clearly moves 
in the direction of what Congress was interested in and what we 
think is appropriate.
    As with anything else, as part of this general review, we 
want to look at what we need to do to be as robust as possible 
in protecting the border. That includes things we are doing 
technologically with unmanned aerial vehicles, our 
consolidation of air resources, sensors, and also, we are 
working, frankly, with State and local partners, as we are 
currently doing with our Arizona border control initiative.
    So I look forward to the opportunity to work with you on 
this issue. I think it is very important to the Committee, it 
is very important to me, to make sure we are being efficient 
but also effective in protecting our borders.
    Senator Lieberman. Thank you. I do not think 210 is enough, 
so I hope we can raise it up beyond that. Thanks, Madam 
Chairman.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman.
    Secretary Chertoff, it is interesting to see you in a 
different facility where before we used to meet in the hall of 
our respective office building. We shared some space in the 
same building before Secretary Chertoff volunteered for 
something he, I hope, will never regret. I don't know whether 
the few days at the job has given you any further trepidation 
about the massive assignment that you have in front of you, or 
whether you have had a chance to get enough time with the 
organization, with the people who will help you run it, to feel 
like this assignment is something that you can deal with and 
make differences with and in a relatively short while.
    Secretary Chertoff. This is a great privilege. I have been 
tremendously impressed by the people in the Department. I have 
enjoyed starting to work with Congress on this. I think this 
issue is one in which there is a real sense of agreement on the 
mission. And there are areas for honest debate and discussion 
about how we get the mission accomplished most effectively, 
which I really look forward to engaging in, and I particularly 
look forward to hearing from others and getting input from 
others, including, most importantly, this Committee on what we 
might do, because we are a young organization, there is an 
opportunity to really shape the way homeland security is dealt 
with in the years to come. And that is a very exciting and very 
important thing to do.
    Senator Lautenberg. I want to say this in the time I have 
allotted here. I think that for the most part, DHS has had a 
good start on this huge task. I have concerns about some of the 
areas of particular interest to my home State. I offer no 
compromise by saying our home State. I just don't want you to 
forget your past. But some States get their grant money that 
they really do not need, and others, like New Jersey, I think 
are on the short side of the grant.
    As the Secretary knows, we have a stretch of land, a 
stretch of territory between the port of Newark and New York 
and Newark Airport designated the most dangerous 2 miles in the 
United States when it comes to terrorism. Despite this and 
other warnings, our funding from DHS was cut last year by $32 
million.
    The 9/11 Commission report recommended that homeland 
security grants should be based on risks and vulnerabilities. 
Senator Corzine and I have introduced a bill to implement that 
view. And we have our problems, Senator Lieberman discussed it, 
and that is, it goes far beyond the focus on aviation. We have 
got 120,000 New Jerseyans who use the Hudson River rail tunnels 
each day. And with our port situation, a recent report from the 
DHS Inspector General pointed out that port security funds have 
not been allocated on the basis of need and money has gone to 
other States.
    So September 11, I think showed that the dependence on one 
principal mode of transportation leaves us vulnerable. When 
aviation shut down, not only was it an impediment to our 
resuming life or continuing life as we knew it before the 
September 11 tragedy, but we were very dependent on Amtrak and 
its ability to carry people. And I think that in the evaluation 
of where we stand ready to respond to terrorist attacks, I 
believe that we have to make sure that we have all modes of 
transportation, principal modes, that is, rail, highway, and 
obviously aviation in mind.
    Mr. Secretary, did you have a chance in the production of 
this?
    Secretary Chertoff. I actually think I was confirmed after 
the budget was issued.
    Senator Lautenberg. OK.
    Secretary Chertoff. But, of course, I am familiar with it 
now.
    Senator Lautenberg. Well, there has been a reduction in the 
size of the formula grants, the guarantees, by two-thirds. They 
went from 0.75 to 0.25 in terms of the guarantee that each 
State would get.
    Now, can we assume that the adjustment of the formula is 
something that we can get your agreement on that the risk-based 
view of grant-making is the proper way or the best way to do 
it, as recommended by the 9/11 Commission?
    Secretary Chertoff. Yes, and I think I have said this now 
in a number of different places, and I am nothing, if not 
consistent. I do think we need to be risk-based, and we have 
within the Department, as we think about a whole host of 
issues--how we deploy our resources, how we issue grant money, 
how we develop standards, a strategy which, again, looks at 
these three pieces. What are the consequences of something 
happening, what is the vulnerability, and what is the threat.
    I recognize that to every community there are things that 
are important. That does not mean that we can fully fund 
everything that is important to every community. We have an 
obligation in dealing with terror, in addressing those elements 
which would have the most serious consequences, as to which 
there are the most vulnerabilities, and where there is an 
active threat. And those are going to require judgment calls.
    What I would like to be able to say, though, as part of 
this process is that we have a transparent, an analytically 
sound and disciplined way of making these decisions, and be 
able to lay that out for the Committee. And I think that is how 
we get a risk-based funding formula implemented.
    Senator Lautenberg. Because when we look at the budget 
proposal and we see that urban area security--I am sorry, State 
and local grants, Citizen Corps, other grant programs, have 
been reduced by $425 million in the 2006 proposal. And it is 
pretty hard to understand how we are going to be able to take 
care of the obligations that we have with that kind of a 
substantial reduction in funding. And I hope that between now 
and the time that the appropriations are finally resolved that 
we will hear from you, Mr. Secretary, on whether or not there 
ought to be adjustments made to accommodate these problems.
    Now, in New Jersey we saw a decrease in homeland security 
funding by $32 million, overall 34 percent, city of Newark, 
which was listed as one of the five targeted places by some 
material that turned up. And the city of Newark saw its 
homeland security funding cut by 17 percent; Jersey City, right 
on the Hudson River, a highly vulnerable place, transportation 
center, a lot of high-risk buildings, cut by 60 percent. And I 
know that you are aware of the fact that these are high-risk 
areas. We are still in reverberation from the days of September 
11.
    So I don't know whether you are prepared to say now that 
there would likely be an increase in those places or whether we 
can expect to have to get by on the skinny, if I can use the 
word, without having the appropriate funding for the 
protections we need.
    Secretary Chertoff. Let me just say I think that, as part 
of the process of review I want to undertake, we are going to 
look at the criteria that was used in making grants, which take 
account of a number of characteristics. Sometimes we may need 
to refine the characteristics so we get a better sense of what 
we ought to give more weight to or less weight to. Sometimes, 
frankly, circumstances change. You can get differences in 
vulnerability or you can get differences in threat environment.
    And so it does not surprise me and it will not surprise me 
in the future if we wind up seeing that funding levels of 
particular localities do not remain static. Sometimes they may 
go up, sometimes they may go down.
    Again, what I would like to do is be able to be confident 
and be able to demonstrate that we have a formula that is risk-
based, that is transparent, that is analytically sound, and 
that is disciplined. Then I think that tool will get us close 
to where we need to be in terms of implementing this 
philosophy.
    Senator Lautenberg. Madam Chairman, I will close with a 
question that has come up in the last couple of days that I 
have been very involved with, and that is permitting gun 
permits to be issued to those who are on the terror watchlist.
    Now, we permit that, even though we would not permit those 
individuals to get on an airplane if we knew who they were at 
the moment of their boarding. And I don't know how much 
jurisdiction Homeland Security is going to have in this area, 
but I did ask your predecessor, Tom Ridge, when he was here 
whether he thought that was a necessary thing to permit. And he 
said he didn't think so. And we had comments from Mr. Mueller 
yesterday about how questionable he saw this program. They 
destroy the records of either a purchase or a decline within 24 
hours--by mandate destroy those records.
    Mr. Secretary, you are not only there to prevent a 
terrorist act from happening, but also to enforce the law in 
terms of having an information source that can help other 
agencies to do their jobs in apprehending these people if, 
heaven forbid, something does happen. So I hope that you will 
have a chance to look at that, and perhaps we will get a chance 
to discuss it in the near future.
    Thank you, Madam Chairman.
    Chairman Collins. I saved you from answering that question, 
I want you to know, Mr. Secretary. [Laughter.]
    Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    Thank you, Secretary Chertoff, for being here, and let me 
just say that I know you have a big job on your hands, and I 
appreciate the complexity of it and the difficulty of it. But 
also at the same time, let me say that I have looked through 
your budget, and as we understand the budget this year compared 
to last year, from the fiscal year 2005 to the fiscal year 2006 
budget, if we run the numbers as we understand them to be, last 
year Arkansas, my State, got about $21.4 million. This year it 
looks like we stand to get about $5.4 million. In other words, 
we are taking a $16 million hit under this budget. You are 
cutting the resources to our State back by about 75 percent, 
and it makes it very difficult for me to support your budget 
when Arkansas is going to suffer such a drastic cut. I just 
want you to know that.
    I guess the way I look at it is in order for America to be 
safe, all of America has to be safe. And $21.4 million for a 
State with our geography and our population is not a lot of 
money. It is not like we are gold-plating what we have down 
there. We have some critical needs, and I know that some of the 
smaller States like Maine and Connecticut and others would say 
the same thing. There are a lot of needs out there, and if we 
are not strong across the Union, I am just concerned whether 
the Union can be safe.
    So do you have any comments on a State like Arkansas taking 
a $16 million, about a 75-percent cut in homeland security 
dollars?
    Secretary Chertoff. I am happy to address that, Senator, 
because I think it is consistent with what I have been trying 
to take as a uniform position, which is that we operate as 
closely as possible to a risk-based analytical approach to 
everything that we do--funding, operations, etc.
    Senator Pryor. Well, I don't want to cut you off, but I 
understand the risk-based. I understand what you are saying. 
But don't we need to prepare ourselves for the next risk, not 
the last risk?
    Secretary Chertoff. Absolutely. That is absolutely right.
    Senator Pryor. And aren't we assuming that because these 
happened in urban areas before, it is going to happen in urban 
areas again?
    Secretary Chertoff. I agree with you, we should not assume 
that. And I think the approach to developing risk is not based 
on simply looking at what happened last time. In fact, I could 
not be in more agreement with you that it would be a huge 
mistake for us to spend all our time fighting the last war and 
not thinking about the next one.
    So what do I mean by risk-based? I mean that we look at 
vulnerability and we look at consequence, which is not 
necessarily related to a State. A particular State may have, 
for example, a kind of infrastructure, the consequences of an 
attack on which would be catastrophic. In that case, we ought 
to put the money to do what we have to do to protect the 
vulnerability there and to do what we have to do to avoid the 
threat. So that although the budget proposal may reduce the 
amount of guaranteed state-by-state funding, it does not 
necessarily tell you how a particular State or locality is 
going to do because if a locality or State has a real high 
risk, they are going to get the money to address the risk.
    So what we do want to do is move away from the assumption 
that risk is divided along State jurisdictional lines. The 
terrorists don't look at State jurisdiction. We need to look at 
where the infrastructure is, where the threat is, and where the 
most serious consequences and vulnerabilities are.
    Senator Pryor. I understand in your formula there is a 0.25 
percent minimum. Am I understanding that right?
    Secretary Chertoff. Right.
    Senator Pryor. Talk to us about that minimum and how that--
I mean, is that a guarantee?
    Secretary Chertoff. Well, my understanding of the way the 
budget sets it forth is every State would get its funding under 
this particular State homeland security program based on the 
characteristics I have discussed.
    If a particular State falls below that 0.25 percent using 
that analysis, they would be raised up to the 0.25 percent 
minimum. If a particular State exceeded that because on the 
merits the risk is there, then, of course, the State would get 
the amount that the merits warrant.
    Senator Pryor. Well, you are saying the 0.25 is a 
guarantee.
    Secretary Chertoff. You would get a minimum of 0.25, but, 
of course, on the merits, if more were warranted, more would be 
distributed.
    Senator Pryor. Right. I understand that. But that is the 
floor.
    Secretary Chertoff. That is the proposal, yes.
    Senator Pryor. I have a concern about that because I have 
had constituents who have spent their lives and dedicated 
themselves to homeland security in Arkansas, and they are 
starting to hear rumors through DHS that the State cannot count 
on that minimum. I would like for you to comment on those 
rumors.
    Secretary Chertoff. Senator, rumors are tough to comment 
on. I think the proposal is clear that the President's budget 
contemplates under this particular program, the State homeland 
security grants, that there be a 0.25 percent minimum, as I 
have defined it. Rumors abound and I just can't--I have no way 
of addressing them.
    Senator Pryor. OK. Madam Chairman, thank you, and I would 
like to say for the record I do concur with Senator Lieberman's 
letter of February 28, on this subject matter and others, and 
thank you for your time on this.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you very much, Madam Chairman.
    Secretary Chertoff, a great pleasure to have you before us, 
and we are thrilled that you are doing what you are doing, and 
hopefully we will move quickly to get you some other folks by 
your side. We had a good hearing with Under Secretary Jackson 
the other day, and I know the Chairman and the Ranking Member 
are moving quickly on that.
    I had a chance a couple weeks ago to inspect the Port of 
L.A. and Long Beach Harbor. I think 46 percent of our Nation's 
container traffic goes through those particular ports. One of 
the issues of great concern that I have seen some studies on 
has to do with the threat of nuclear detonation, and the impact 
that would have in a port area. I think Booz Allen's study 
found the economic impact of a terrorist attack at $58 billion, 
spoilage loss, etc.
    I understand we have not deployed radiation portal monitors 
at our Nation's largest ports. Can you talk about that issue?
    Secretary Chertoff. My understanding is that there are 400 
portal monitors now deployed at various ports of entry, 
including obviously seaports. I hesitate to comment publicly as 
to whether a particular port has a monitor, but the plan is to 
have these monitors deployed--I think the balance of the 
monitors deployed this year.
    But I also want to put it in a larger context. I think the 
President agrees and we agree that the issue of a potential 
nuclear or radiological device is a very serious issue we must 
be concerned about. That is why the budget contemplates this 
Domestic Nuclear Detection Office (DNDO), this nuclear office 
that would coordinate across the board and essentially almost 
create a mini-Manhattan Project to move to the next level 
technologically. And even as we speak, in addition to deploying 
the portals that we now have, we are dedicating money to doing 
the research necessary to get to the next generation of portals 
that will be more sophisticated and more adept at detecting 
this material.
    Senator Coleman. And then I believe there is $125 million 
in the budget for radiation portal monitors.
    Secretary Chertoff. Yes.
    Senator Coleman. So it is there. In terms of what you can 
tell us about the process for utilizing these dollars, is there 
a sort of focus on high risk? Can you give me a little better 
sense of how you use this $125 million?
    Secretary Chertoff. Well, as I say, we want to complete the 
deployment of the existing technology as we wait, because 
obviously we do not want to wait until we get new devices. We 
are heavily focused, first of all, on getting a technology that 
will be as effective as possible in detecting this material. 
And, again, because we are in a public session, I do not want 
to get too detailed about what some of the challenges are.
    Once we get that technology, then I think part of the 
responsibility of this office will be to deploy it, and that, 
again, I think needs to be, as with everything else, based on 
risk and vulnerability and consequence.
    So presumably, once we get that technology, we will roll it 
out in a way that best meets that analytical test.
    Senator Coleman. Just following up on the Domestic Nuclear 
Detection Office--and I appreciate the increased focus--can you 
help me understand the role of this? Will this supplant CBP as 
the primary agency involved in deployment of nuclear detection 
weapons? Is it going to be an advisory role? How is it going to 
function with the existing entities?
    Secretary Chertoff. The theory is that this is a matter of 
great importance that requires an interagency approach, so it 
will be an interagency office. It will report to the Secretary, 
which I think is indicative of the priority that we place on 
this, although it will be tied very closely to the existing 
research we do at the Science and Technology Directorate. And 
the idea is not to supplant CBP because CBP is ultimately the 
operational--or part of the operational element that will make 
use of this technology. And so CBP will be involved in the 
process.
    But what the office will do is not merely advise; it will 
actually take ownership of the process of identifying, 
acquiring, evaluating the technology, and then rolling it out 
and deploying it, although obviously the actual use of the 
technology will be done in the field by CBP officers.
    Senator Coleman. Let me, if I can, get perhaps a little 
parochial, but not really. Minnesota is the home of Northwest 
Airlines. They, like many of the other legacy carriers, are in 
a very difficult financial situation for a whole range of 
reasons. But in the President's proposal, it proposes to 
increase, to double the airline security fees for passengers 
traveling on airlines. The airlines say if this cost is 
transferred back to them, it is going to have a devastating 
impact on an industry that is already in great difficulty.
    The airlines--and I raised this issue with Under Secretary 
Jackson, and I am not proposing we tax train passengers, I am 
not proposing that we do other taxes on a range of others. I am 
just concerned about the equity on airline travel, airline 
passengers, and ultimately on airlines, but it is going to be 
shifted over to the passengers, this continued increase in fee. 
I believe passengers ought to pay $2.50 per flight segment and 
a maximum of $10 on a round trip. I think it is proposed to be 
doubled, a segment fee to $5.50 and a round trip fee at $16.
    Can you respond to some of the concerns that have been 
raised?
    Secretary Chertoff. I would be delighted to. My 
understanding, Senator, is that, of course, when the original 
legislation establishing TSA was passed, it was contemplated 
that eventually it would be largely, if not entirely funded 
through a user fee. And I think that makes sense because what 
it does is it matches up the payment of the cost of this fairly 
extraordinary set of security measures with the beneficiaries. 
The reality is, speaking as someone who has flown a lot, as 
everybody else has, I care a lot about security, and I think 
everybody else does. And to the extent that we pay for things 
that we care about, I think passengers would understand the 
need to pay a small amount of money to guarantee their security 
so they get where they are going.
    I would point out the amount of money we are talking about, 
I think if you take it on a one-way ticket, the maximum is 
raised from $5 to $8, a $3 difference, which basically, as I 
recall it, is about the price of a Coke and a newspaper at an 
airport when you are waiting around. So it is not a huge 
marginal cost.
    What we should do, and I think it is part of the general 
philosophy, is we should pay just enough to get us the security 
we need--in this case, for the airline passenger--not more than 
we need, because that is wasteful, but not less. We should be 
able to fund what we do for security.
    So I think this is an economically sound idea. I think it 
will ultimately be something passengers, I would think, would 
fully understand. And to the extent there are issues with 
respect to the precise details, of course, I would look forward 
to working with industry on that.
    Senator Coleman. I anticipate that some Members of this 
body will have a differing perspective, and I being one of 
them.
    Secretary Chertoff. I expect that. I look forward to 
discussing that. I think it is something worth talking about.
    Senator Coleman. Thank you, Mr. Secretary.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman. Welcome, Mr. 
Secretary.
    Secretary Chertoff. Thank you, Senator.
    Senator Levin. I applaud, first of all, your moving towards 
a more risk-based grant program. I think it is the only way to 
go, providing that the grants are determined on a rational 
basis, and you have laid out the criteria for that rational 
basis. The 9/11 Commission recommended that funding of these 
grants be allocated on risk, stating that ``Homeland security 
assistance should be based strictly on an assessment of risks 
and vulnerabilities.''
    You have moved towards a greater reliance in your budget 
proposal on that assessment, although you are not strictly on 
that basis because you still have a minimum 0.25 guarantee. But 
at least you are moving in that direction, and I commend you 
for that.
    My concern is what happens once you get there as to just 
how rational your system is in terms of allocation. And I look 
at your buffer zone protection program, and I look at the 
allocations made to States that are supposed to be made on 
risk. That program is supposed to be a risk-based allocation 
program. But when I look at the amount of money that various 
States are getting, it does not seem at all rational to me.
    For instance, Arizona on buffer zone protection, which, 
again, is risk-based, gets six times what Hawaii gets. Does 
that mean that there are more infrastructures, more facilities 
in Arizona that are subject to attack, more critical 
infrastructure sites, six times as many in Arizona as Hawaii; 
Tennessee, 2.5 times Massachusetts; Kentucky more than 
Michigan.
    Can you describe the basis for your buffer zone protection 
allocations?
    Secretary Chertoff. I think the rollout of the grant-making 
process is going on as we speak. I don't know that I can 
explain how a particular State is scored relative to another 
because I think, again, the way I understand this should work 
is it is based on the three characteristics I have described: 
Consequence, vulnerability, and threat. And that is not 
something which necessarily is driven by where State lines are 
drawn.
    Let me step back and put it in perspective, first by saying 
that since September 11, including the 2006 budget, there will 
have been a total of $17 billion in grants. So there is a lot 
of money that has been given out there and a lot that is going 
to be given.
    As part of what I have described as my desire to kind of 
comprehensively review the Department, I want to look at the 
grant-making process and see if we have as disciplined and as 
defensible a process for scoring as possible. And it may very 
well be that there are things we have done historically in 
terms of scoring things that need to be corrected. Sometimes we 
get that through feedback; sometimes we get it through looking 
analytically on our own.
    So without specifically being able to tell you as we speak 
why a particular State in a particular grant got more money 
than another, I can tell you that the objective and the 
philosophy, which I think is shared across the Administration, 
is to have a program that is disciplined in the way I have 
described.
    Senator Levin. Well, I agree with the philosophy, but the 
implementation of that philosophy is critical, or else it is 
just going to cast a pall on the whole premise.
    Secretary Chertoff. I agree with that.
    Senator Levin. And I want to move to a risk-based system, 
but we have all got to be persuaded that it is a rational risk-
based system. And when you look at these States, at least 
roughly--and I obviously am most familiar with Michigan--it is 
not a rational allocation from anything that I can see. So as 
you go through this process, I would like to work with you and 
your staff on exactly how those criteria are applied. Is that 
fair enough?
    Secretary Chertoff. I think it is fair, and I think once I 
am through this process and my understanding is more detailed, 
I anticipate and I will insist upon having a formula that will 
be, I think, transparent and reasonable.
    Senator Levin. All right. I thank you for that.
    The Department of Homeland Security intended to open up 
five Northern border air wing locations, but has apparently 
opened up none of the additional ones that were stated to be 
necessary. Can you give us the status of those Northern border 
air wing additional bases?
    Secretary Chertoff. I believe, Senator, you are correct 
that two were opened up. I know one is in New York. I think the 
other one may be in Washington or further out West.
    I think the plan is to open an additional one each year to 
get up to the five, and so we are under way with that.
    Senator Levin. Is that still the plan?
    Secretary Chertoff. Yes.
    Senator Levin. Thank you. We have a lot of issues on the 
Northern border. We have a very inadequate Border Patrol, and 
we have made huge efforts here to have folks realize that we 
have got a much longer Northern border than we do a Southern 
border. There were supposed to be staff increases in the Border 
Patrol. There were also supposed to be an assurance that at 
least 20 percent of the additional Border Patrol agents would 
be assigned to the Northern border, and, again, we have a far 
longer border and we have got major issues along that border.
    Is that staffing, that additional staffing, going to 
reflect that minimum 20 percent for the Northern border?
    Secretary Chertoff. I think what happened is it was the 
Patriot Act that required the movement up to the Northern 
border. That was accomplished, and I think the 210 Border 
Patrol agents that will be coming on will essentially be 
assigned where needed most. I cannot tell you whether that will 
result in a third based on the original number or a third as 
you rack it up against the total number that is enhanced. Given 
the threat on the Northern border, I suspect any significant 
increase will be beneficial.
    Senator Levin. Thank you. My time is up.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Mr. Secretary, I just finished a meeting in my office and I 
turned on the television and saw Senator Lautenberg trying to 
hijack money from Minnesota, so I had to rush over here. And I 
am glad that Senator Coleman is here, too.
    Some of these words--and I respect you are just getting 
started in this. I am not questioning your sincerity at all, 
but ``transparency'' and ``rationality'' and the like--they 
sound good in generalities. But when they are applied, at least 
what happened in Minnesota this last time where you got eastern 
metro counties being eliminated entirely and western metro 
counties being cut back significantly, it does not appear 
rational.
    It may be transparent in retrospect that we could look back 
and see that there was a process involved, but there was no 
forewarning, and with such a drastic reversal of what has been 
the message from the Administration, from Congress, to local 
governments, first responders, take these initiatives, do all 
this, take all these steps, often at their expense, put 
hundreds and thousands of hours in preparedness, and then 
someone is going to turn around and say, well, we have done the 
risk assessment and you get no money. Someone from your 
Department needs to tell the local officials why it is that 
they do not need to be concerned anymore and why it is that for 
the last 3 years they have been told that they should be 
mounting all these initiatives and making all this effort, and 
then somebody has decided, for whatever reason, that if they 
are being eliminated from funding that there is no risk to them 
whatsoever and justify that.
    That is the real nitty-gritty of this. And what I don't see 
in this budget here, I can look at the general numbers here 
about the Urban Area Security Initiative, a $135 million 
increase over the requested funding for 2005, but a $180 
million decrease from the actual appropriation, the FIRE Act 
grants equal to last year's request, but $250 million less than 
2005 appropriated funding.
    If I look at these aggregate numbers, it says to me that 
when this gets translated into whatever rational and 
transparent process, it is still going to come out with less or 
no money for certain areas. And then the statement from the 
Administration is that there are no risks there. If that is not 
an accurate reflection of the view, then there is not enough 
money in here in order to fund all these projects in areas that 
may not be as high risk as New Jersey or other areas, but where 
there is still risk and where they need to be continuing these 
first-responder kinds of preparations, training, and the like.
    So I need to know, before I can decide whether to support 
the budget or not, how these aggregate numbers are going to 
translate through your process into those decisions.
    Secretary Chertoff. I agree, first of all, that we ought to 
make sure we are always communicating with our State and local 
partners about these issues. I don't like to hear unpleasant 
surprises suddenly, and I think very few people do. And I think 
we need to commit ourselves, and as I have indicated, I have 
instructed people that I want to make sure we do not have this 
happen in the future.
    Senator Dayton. Even if they are not surprised, I don't 
want them to be eliminated.
    Secretary Chertoff. Well, on the larger question, what we 
need to do is to--there is risk everywhere. Risk is a part of 
life. And I think one thing I have tried to be clear in saying 
is we will not eliminate every risk. First of all, some risks 
are risks which State and local governments traditionally bear 
and have to continue to bear. We can help them with standards 
and advice, but to take an example, there was an incident I 
guess a few weeks ago in California with a train derailment. I 
don't want to talk about it too specifically because I guess 
there is a pending case. But that was not a terrorist-related 
incident.
    That kind of thing has always happened. The appropriate 
authorities have to take steps to prevent those risks and 
protect against them. They have not all become Federal matters 
simply because a terrorist could also choose to do the same 
thing.
    So we have to say, look, the risks we are most concerned 
about are those which are highest on our analytical scale. 
Others certainly we will be helping out in terms of standards 
and advice and the whole panoply of traditional things we can 
do with our partners, including information sharing. And we 
have to be nimble enough when something changes to be able to 
respond to it.
    But the message is not that if we do not give a substantial 
amount of Federal funding there is no risk. The message is that 
in the hierarchy of risks, we have to put the resources where 
the highest risks are. And I know that is a very tough 
statement, and in coming up and speaking to the Committee and 
speaking generally, I guess I have had it in my mind, that we 
owe pretty blunt talk to people about what the limitations are 
of what we can do and how important it is that what the public 
expects is that we put our resources to work in a way that most 
closely approximates the most serious risks with the worst 
consequences and the greatest vulnerabilities.
    Senator Dayton. The candor would be welcome, but the 
consistency is also important. And what you are saying here is 
going to be a 180-degree reversal of what your Department, 
prior to your coming, and the Administration and the Congress 
have been saying to these local governments. They are not 
expecting the Federal Government to fund all of their first-
responder activities, but they are expecting the Federal 
Government to be consistent in providing the resources for 
those additional efforts--training and preparation and 
equipment and the like--that they have been told that they 
should undertake in order to fulfill their responsibilities for 
these attacks. And nobody knows where they are going to come, 
what form they are going to take.
    Again, this is a total reversal, and if this is going to be 
the consequence of this budget, I would like to ask if you 
could respond in writing to what level of funding for these 
first-responder grants and awards, based on whatever new 
formula or the like, is going to be necessary to fund every 
State and local government at the level that it was heretofore. 
And then we can assess whether or not the amount of money that 
is being requested is sufficient or not. But if the outcome of 
this is going to be that a whole bunch of local efforts are 
going to be zeroed out from any Federal support, I respectfully 
disagree with that approach.
    Secretary Chertoff. Well, we will be happy to respond in 
writing. Let me just add this: There is, I think, in the budget 
a total of about $3.5 billion which could be available to fund 
things like local first responders, including the homeland 
grants, which do have this built-in minimum, the UASI grants. 
We do still have fire assistance, I think $500 million. So 
there will be money there.
    Some of the hard decisions will have to be made at the 
State and local level. One thing, for example, that I think is 
important is sharing of resources. It may not make sense for 
every single town in a particular geographic area to have the 
full capability to do hazmat if we can centralize the hazmat 
response capability in a place that can cover a number of 
areas, and thereby really put a meaningful level of resource 
and training into that place.
    So this is going to require everybody to think--and, 
frankly, if a State wants grants and if a locality wants 
grants, the more able they are to demonstrate effective use of 
resources, it seems to me we ought to score that higher in the 
grant-making process.
    So I think we want the same things. I do believe 
consistency is important, and that is what we are going to work 
to achieve.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Secretary, my next question actually follows up well on 
the discussion that you just had, and I think you can see that 
many Members of this Committee have a great deal of concern 
about the Administration's budget and its adequacy for homeland 
security grant programs.
    But one issue that ought to unite us is making sure that 
money is wisely spent, and unfortunately there have been some 
cases cited by the Inspector General and the Government 
Accountability Office that suggest that the money is not always 
wisely spent.
    I think it is important to clarify that the vast majority 
of the money has been well spent and has been very necessary. 
But the legislation which this Committee unanimously approved 
last year and which many of us reintroduced last month had 
three provisions to help put in better controls to prevent 
wasteful and potentially fraudulent spending:
    First is a requirement for an independent audit, an annual 
GAO audit and report on DHS grants to the States.
    Second is a provision tying spending to standards. This 
would be a requirement that States distribute the homeland 
security funding only in ways that measurably help them to meet 
the preparedness standards to be set by the Department. In 
other words, to cite one egregious case, you cannot spend the 
funds on leather jackets unless you can somehow show that 
leather jackets increase preparedness, which seems to me to be 
unlikely.
    A third provision would be remedies for noncompliance. This 
would authorize the Secretary to terminate or reduce grant 
payments if a State or locality failed to comply with these 
requirements.
    What is your position on putting in specific legislative 
controls to help ensure that the money is well spent?
    Secretary Chertoff. Well, I think that, as I understand it, 
HSPD-8 actually imposes on us a requirement to get out--and I 
think we need to do it this year--a series of metrics that we 
can use to set a baseline of preparedness for all of our State 
and local partners. And I think that is an important device to 
use in order to impose this kind of discipline. What it would 
do is, first of all, enable us to give clear direction; and, 
second, if people were not following the direction, at a 
minimum that would have a seriously negative impact on their 
ability to get funding in a succeeding year.
    Whether there is a need for additional sanction beyond 
that, I don't know. I think we ought to be able to make 
ourselves very clear. Money is tight. Everybody wants it. And 
the surest way to take yourself out of the running for a grant 
is to buy leather jackets, unless we are missing something on 
the leather jacket front.
    Chairman Collins. Thank you. Because money is tight, the 
Committee has scoured the budget request not only to identify 
areas that have been underfunded, in my view, such as homeland 
security grants, but also to look for opportunities to save 
money. And I want to bring up one such example. Clearly, the 
Department needs a center that is open 24 hours a day, 7 days a 
week, to address threats and to respond to incidents. But from 
our review of the budget, it appears that you have three such 
centers. The budget justification describes the Homeland 
Security Operations Center, which is proposed to receive $61 
million in fiscal year 2006, as ``the primary national level 
hub for operational communications, information sharing, and 
situational awareness. It receives and integrates threat 
information. It maps the Nation's critical infrastructure. And 
it enables information sharing and collaboration among Federal, 
State, tribal, local, and private sector entities.''
    In other words, that sounds to me like exactly the kind of 
around-the-clock center that the Department should have. But if 
you look further into your budget, you also have two other 
around-the-clock centers. The second called the National 
Infrastructure Coordination Center. That is proposed to receive 
$10 million. And the third is a Cyberwatch Center, which is 
slated to receive $11 million.
    From our review, it appears that each of these three 24/7 
centers is monitoring critical infrastructure, communicating 
with State and local officials and the public, and responding 
to incidents. So when you add that up, that is $82 million--$61 
million, $10 million, and $11 million.
    Do we really need three separate around-the-clock centers? 
Wouldn't it be more efficient and save scarce dollars for us to 
have one consolidated center?
    Secretary Chertoff. I appreciate the opportunity to answer 
that, Madam Chairman.
    First of all, any cost saving that can be identified to me, 
I am going to do my level best to exploit because we are tight 
on money, and if we are wasting money or we are duplicating 
effort, I want to put the money on the ground somewhere.
    In this instance, though, I think there are three separate 
roles that are played, and, frankly, they have to be played--
and they are distinct. They would have to be played--even if we 
moved all the centers into one building, we would have to 
triple the size of the building, and there are reasons, by the 
way, not ever to do that because you never want to put all of 
your eggs in one basket so if you have a power problem or 
something like that, you have totally shut down.
    The Cyberwatch Center looks at cyber intrusions, obviously 
a very important issue and increasingly important, and makes 
sure that we are interconnected with the private sector in 
terms of warning and response. That is a function which is very 
sophisticated and requires a great deal of specific information 
and interaction with people who work in the cyber world. So 
that is quite a specific and detailed effort.
    Likewise, the Infrastructure Coordination Center deals with 
essentially connecting up different parts of the national 
infrastructure to allow communication across the board in the 
case of an emergency, such as, for example, a power failure 
that could then cascade into communications and refineries.
    The HSOC, or the Operations Center, does not deal at that 
level of granularity with information. It is designed to stand 
back and take a more comprehensive view and coordinate between 
incidents that might involve infrastructure, that might involve 
cyber, and that might involve a whole host of other things, all 
happening at the same time. And the customer for that is, 
frankly, me and the people in the leadership of the Department 
and in the leadership of the other departments.
    So that in order to make HSOC capable of doing the robust 
cyber piece that we want and the robust infrastructure piece, 
we would essentially have to triple it. And I think if I were 
given the choice between putting everything in one place and 
having them in three separate places but connected, I think 
probably it is prudent to keep them in separate places because 
if something happens and you get a power failure or a computer 
crash, at least you have not taken down your entire management 
structure. You have got a certain amount of redundancy built 
in.
    Chairman Collins. Before I yield to my colleague, let me 
just respond to that by saying if I were the local police chief 
in Portland, Maine, and there were an incident that involved 
the technology infrastructure of a local chemical plant, I 
would be baffled which one of the three centers to call.
    Secretary Chertoff. I can answer that, and I want to 
because the point of the Operations Center, the HSOC, is 
precisely to be the place when you don't know, that is where 
you go. We might eventually connect you to something more 
specific elsewhere, but we are very much into the one-stop 
shop. And that is the central one-stop shop for Homeland 
Security.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. I would just 
share with you an unusual coincidence. I went out to take a 
call from my Governor, Jodi Rell, and I had something I wanted 
to talk to her about. And she said, ``While I have got you, if 
you run into Secretary Chertoff, would you please make an 
appeal for restoration of homeland security funding for 
Connecticut?'' And she specifically asked about New Haven, 
which is under the urban areas threshold of 225,000. So I now 
make this as a bipartisan request from Connecticut.
    I have a few questions I wanted to ask. One is about Coast 
Guard research and development. The fiscal year 2006 budget of 
the Department reflects plans to consolidate all of the 
Department's research and development activities in the Science 
and Technology Directorate. There is no reason for you to know 
this, Mr. Secretary, but last session Congress rejected a 
similar proposal because of concerns that the Coast Guard's 
research and development activities in support of its 
traditional missions would be jeopardized under such an 
arrangement. And I share that concern.
    There is a model, I gather, within the Department that the 
Secret Service is a distinct entity and has its own research 
and development programs, but is called on to coordinate 
closely with the S&T Directorate. I don't know if you have had 
a chance to look at that and want to comment on it. If not, I 
will go on to another question, but I wanted to draw that 
history to your attention.
    Secretary Chertoff. I am aware of that, and I actually 
anticipate that I will be looking at that particular issue.
    Senator Lieberman. OK. Second is the information-sharing 
environment, which is a real focus of the 9/11 Commission. In 
fact, the Commission concluded that the biggest impediment to 
all-source analysis and to a greater likelihood of connecting 
the dots was the resistance they found to information sharing. 
As a result, they urged a new governmentwide approach be 
developed. Placing a really high priority on a different kind 
of ``ISE'' here, information-sharing environment, that the 
budget, as I read it, does not seem to me to emphasize creating 
that information-sharing environment, and I wanted to ask you 
generally what priority you put on it and how you plan to 
proceed to implement that particular recommendation of the 9/11 
Commission and of Congress in our legislation.
    Secretary Chertoff. I think, Senator, that is one of the 
most important tasks of the Department, and in the 3 weeks I 
have been on the job, I have met with State and local partners, 
and they have all emphasized the importance of that in terms of 
their own work.
    We have stood up this Homeland Security Information 
Network, which now essentially connects us to 50 State homeland 
security headquarters so that we can get information out 
quickly and make sure we are all connected in that respect.
    One of the things I want to continue and, frankly, expand 
is the use of our analytical abilities to share with State and 
local partners maybe more in-depth and detailed information 
about the threat that we face, including lessons learned from 
what we have seen in past experiences where there have been 
terrorist incidents.
    It should not only be about here is a little tidbit of 
information, let's get it out to everybody. It should be trying 
to provide a context within which State and local governments 
can have a better understanding for their own purposes of the 
nature of the threat that we face.
    Senator Lieberman. Good. Thank you.
    Earlier in February, the U.S. Commission on International 
Religious Freedom released a study authorized by Congress on 
asylum seekers and expedited removal. In some sense, this goes 
back to the conversation we had at your confirmation hearing 
about my concern about immigration laws and due process. This 
is uniquely for those seeking asylum. And, of course, the 
Commission is concerned about people seeking asylum for reasons 
of religious discrimination and, worse than discrimination, 
real danger back home.
    The study found that the DHS had procedures to ensure that 
legitimate asylum seekers were not erroneously sent back to the 
countries where they might well face persecution, but that 
implementation of the procedures varied widely. In fact, in 
some ports of entry, they found that procedures designed to 
protect asylum seekers were being followed by DHS employees 
only half of the time; also that these asylum seekers who, in 
my understanding, are rarely criminal, are being too often 
detained in maximum security correctional facilities, often in 
the same cell blocks as convicted criminals who are serving 
time.
    I don't know whether you have been briefed on this report 
at all. If not, I wanted to draw it to your attention and urge 
you to take steps to make sure that the procedures of the 
Department are implemented in a way that the promise at the 
base of the Statue of Liberty is actually implemented every 
day.
    Secretary Chertoff. I will do that, Senator.
    Senator Lieberman. Are you aware of the report?
    Secretary Chertoff. I have read the report. I think I had 
read actually news accounts of the report, so I am familiar 
with it. And I remember we talked about it. I have not yet been 
briefed on it. I do agree these procedures ought to be 
followed. We have them for a reason.
    Senator Lieberman. Let me just say finally on this matter 
that one of the conclusions of the 9/11 Commission was that the 
existing DHS organizational structure does not allow problems 
of asylum seekers to be addressed anywhere other than the 
Office of the Secretary, because it is the only place with the 
line of authority down to all three DHS agencies involved in 
expedited removal: USCIS, ICE, and CBP. Obviously you cannot 
answer it now, but they recommend the appointment of a refugee 
coordinator to whom you would delegate your authority in this 
area. And I just wanted to draw that to your attention and ask 
you to consider it.
    Secretary Chertoff. I will do that.
    Senator Lieberman. Thank you. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    I want to just follow up on the grant allocation question 
my colleague Senator Dayton raised. I try to pose this not 
solely in a--just kind of looking at Minnesota, although I 
represent Minnesota, and that is the reality. But I am trying 
to understand the system.
    One of the problems we have that we faced--again, decisions 
made before your confirmation--is the large fluctuations in the 
amount of money. You get in St. Paul a $7 million grant 1 year, 
and then zeroed out the next year, without any notice until the 
announcement of the overall grants.
    So I would just urge you to take a look at this issue. If 
we are consistently wrong, I could understand that. But there 
is this sense in working with folks at the local level of 
clearly not surprise, but I think to be a greater sensitivity 
about the impact of that kind of action, where all of a sudden 
you have been given a message and you have acted upon it, you 
have put in place systems, and then, boom, like that.
    In addition, as we deal with this issue of risk--and, 
clearly, we saw the risk on September 11, but there are other 
risks.
    Secretary Chertoff. Sure.
    Senator Coleman. And God forbid something else happens. We 
are all going to be talking about other risks. There are three 
of us up here right now who are Northern border communities. 
Minnesota has an international border with Canada, a major port 
of entry for cargo and vehicle traffic in the city of 
International Falls; two major cities, Minneapolis and St. 
Paul; two nuclear reactors, one on the Mississippi River; a 
major port in the city of Duluth.
    I am not sure I can get it now, but I hope that we have an 
ongoing discussion about this question of risk and that it is 
not just population numbers, but it is--we have the Mall of 
America, which was at one point the first or second largest 
tourist attraction in the country.
    So I just want to encourage an ongoing conversation rather 
than kind of by-the-book allocation of numbers based on number 
of people, etc., I think there are other things that need to be 
considered.
    Secretary Chertoff. I would like to do that. I agree with 
you. I think it has got to be much more subtle and adapted to 
reality than just a cookie cutter.
    Senator Coleman. The other issue that I want to raise has 
to do with the Customs Border Patrol seeking a substantial 
increase in the C-TPAT program, Customs-Trade Partnership 
Against Terrorism. A good concept, a good program, and I am not 
sure how much you have looked at it, but the idea being that 
companies that submit--that work with the agency in the end 
have a decrease in certain fees because they have submitted a 
plan, etc. The increase is, I think, $20 million, bringing 
total funding of the program to over $54 million. It is one of 
the highest percentage increases.
    I know the GAO--we have submitted--we are looking at this 
program. In fact, the Permanent Subcommittee will have a 
hearing on this issue in early April. My Committee has 
substantial serious concerns about the implementation of the 
program. I know that we have requested GAO to do a report, and 
that report will be finalized and we will have our hearing in 
conjunction with that. But I think it is fair to say that there 
are serious concerns about the implementation of the program, 
that companies are submitting documents with cursory reviews, 
getting these significant cutbacks in fees, but that there has 
not been the kind of review and investigation that is needed.
    Can you talk a little bit about the increase in funding in 
a program whose fundamental effectiveness has certainly been 
called into question?
    Secretary Chertoff. First of all, I think the program is a 
very good program, and I think it is, again, part of a general 
sense that as we deal with an enormous influx of trade, both 
people moving and goods moving from overseas, we want to 
balance two things. We want to encourage free trade, 
prosperity, business, and we also want to keep out bad people 
and bad stuff. And they work together because the more 
confidence we have in the reliable trade partners, the more we 
can focus our resources on the people who are not necessarily 
reliable.
    So that all makes sense, but you are completely correct 
that from the theory to the practice is the implementation, and 
let me say first I look forward to seeing the result of the 
report. Perhaps unusually for someone in Washington, I actually 
think getting criticism can be helpful because we learn 
something from it.
    In terms of the increase in funding, I think we need to 
make sure that if this program is to work, we have the 
resources in place to validate and check these things. The 
worst thing would be this: To have a program for reliable 
travel or reliable cargo that was insufficiently robust so that 
people could sneak in and use it as a Trojan horse. That would 
be the worst of all worlds. And so I think part of the deal 
with our going to this model has to be very careful to make 
sure we are really being stringent.
    Senator Coleman. I appreciate your openness to review, and 
certainly the concept is the right concept. And our concern is 
to make sure that it works well, that it is doing what we are 
funding it to do.
    Secretary Chertoff. Mine, as well.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Before I yield to Senator Levin, let me announce that we 
obviously were not able to have a quorum of Senators here at 
the same time to report Michael Jackson's nomination. So we are 
moving the markup to off the floor during the stacked votes at 
noon in S-219, which I am told is the Ceremonial Room on the 
Democratic side.
    Senator Lieberman. It is a bipartisan room.
    Chairman Collins. I hope so. That information did worry me.
    Senator Lieberman. It is only on our side. It is not our 
room.
    Chairman Collins. OK. So we do hope to report Michael 
Jackson at that time. I know that you are very eager to have 
him join you.
    The vote has started, but we do have time for Senator 
Levin's questions.
    Senator Levin. Thank you, Madam Chairman. Mr. Jackson did 
very well at his hearing, by the way.
    Secretary Chertoff. He is terrific, and if confirmed, I 
think he is going to be a great Deputy.
    Senator Levin. Mr. Secretary, we have about 17 million 
containers that come into the United States each year. About 
half come in by ship at seaports; about half come in by train 
or truck at land border entries.
    We have a program inside your budget for the seaports. I am 
just wondering whether or not that covers land ports of entry 
as well, and if not, why not?
    Secretary Chertoff. Well, I think, again, and this is going 
to be part of the process I hope to undertake in the next 60 to 
90 days. The problem of cargo is really a single problem with 
unique dimensions for sea, air, and land.
    Through the National Targeting Center, we do have a program 
for identifying high-risk cargo, and I guess it is probably 
most often discussed in the seaport context, but I believe it 
applies to land ports as well.
    Where I would like to see us move again across the board, 
this is some variation on what I said previously about a 
combination of trusted cargo shippers and fast tracking where 
we can make sure we have properly vetted the cargo, whether it 
be air, sea, or land, and then that gives us the resources to 
do a more robust inspection with respect to people who are not 
in that program.
    So that is where we are with that, and once I have finished 
this process of evaluating across the board, I think we will 
have some opportunity to make some adjustments perhaps to align 
the structure with the mission.
    Senator Levin. And that would include the land ports of 
entry.
    Secretary Chertoff. Yes.
    Senator Levin. The largest port of entry in the world, the 
largest trade link that we have with the world, is the 
Ambassador Bridge between Detroit and Windsor, Ontario. Seven 
thousand trucks a day cross that bridge, and it seems to me to 
leave out the land entry ports of entry is not a particularly 
rational system.
    We have also asked you to look at a specific problem 
because a large number of trucks come in each day that are not 
subject to inspection in an effective way, and those are the 
garbage trucks that Toronto has decided to bury in Michigan at 
our landfills, and that is a separate problem. It is part of 
the larger one. We have asked you to look into that, and we 
look forward to your response to that issue.
    Secretary Chertoff. I will.
    Senator Levin. Mr. Secretary, just two other quick 
questions. One is on the authorization by Congress last year of 
not less than 800 additional Immigration and Customs 
Enforcement investigators, the ICE investigators that are 
looking at violations of immigration laws. Do you know whether 
or not the budget request includes those additional inspectors?
    Secretary Chertoff. I think it includes not the full 
amount, some number, and I have to say as I am sitting here, I 
am blanking on what the exact number is.
    Senator Levin. OK. If you could provide us----
    Secretary Chertoff. One hundred and thirty-five.
    Senator Levin. Of the 210, OK.
    We had a hearing at the Permanent Subcommittee on 
Investigations regarding a very troubling Border Patrol and INS 
policy back in November 2001. This came right after September 
11, and what we discovered was that people who were arrested by 
Border Patrol attempting to enter into the country illegally, 
outside of the ports of entry, crossing borders at non-ports, 
so obviously illegal by definition, were nonetheless released 
on their own recognizance and without criminal background 
checks.
    It was astounding to us that was true since that person by 
definition is entering the country illegally. There is no doubt 
about it because they are not coming through a port of entry. 
And we at that point insisted that we be given studies as to 
how many of those people show up for their hearings, released 
on their own recognizance. Obviously if they are trying to get 
into the country, it is not a very reliable act to say you can 
just go out on the streets, show up at a hearing someday, and 
we will give you notice if we can have an address, thank you.
    Do you have any idea yet what percentage of people arrested 
for illegal entry and released on their own recognizance show 
up at the hearing on their removal?
    Secretary Chertoff. I don't have the statistics. I remember 
from my prior life that there were statistics some years back 
of hundreds of thousands of absconders.
    We do, however, now have a program which we have 
increasingly ramped up on compliance enforcement, where people 
do abscond going out and tracking them down and bringing them 
back. So we are trying to address that problem.
    Another piece of this is we have a program to try to fast-
track people to get them to agree basically to be fast-tracked 
into deportation, for example, when they clear out in terms of 
finishing a criminal sentence. So we are trying a variety of 
methods basically to turn beds around in detention centers more 
quickly.
    The most important piece of this, of course, is who we 
choose to release, because it is one thing to put someone out 
on bail who is not a danger to the community; it is something 
else again if they are. And so one thing I have asked about and 
I am looking into is making sure that we have a good system in 
place when we make decisions about who should be released so 
that at least people of special interest are not the ones being 
released.
    Senator Levin. Do we do criminal background checks for 
anyone before they are released?
    Secretary Chertoff. I do not know the answer to that, but I 
will find out.
    Senator Levin. If you could give us that for the record, 
but also tell us for the record what is the most recent number, 
percentage of people released on their own recognizance who do 
not show up for their hearing.
    Secretary Chertoff. I will do that.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper, I have never 
missed a vote, so don't make me miss my first one in my Senate 
career. We are glad to have you here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. Madam Chairman, you are not going 
to miss a vote today.
    Let me say to the Secretary welcome. I think it is the 
first time we have had a chance to welcome you as Secretary. We 
are delighted that you are here, and thank you for your 
stewardship and your willingness to serve.
    Madam Chairman, I have a statement for the record. We have 
been at a markup on the Clear Skies proposal, another important 
issue, so I have been distracted, as Senator Lieberman knows. 
And I have a statement I would like to offer, Madam Chairman, 
and some questions for the record for our witness.
    [The prepared statement of Senator Carper follows:]
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Madam Chairman, for convening this hearing today on the 
President's proposed budget for fiscal year 2006 at the Department of 
Homeland Security. It's vitally important that we examine this budget 
proposal closely because, as I read it, it would have a devastating 
impact on States like mine.
    By my calculation, this budget would cut the amount of first 
responder aid granted to Delaware and all small and medium-sized States 
by more than 80 percent. It proposes cutting funding for the State 
Homeland Security Grant Program by about $500 million. At the same 
time, it would increase the amount of money set aside for the largest 
urban areas in the country while cutting the baseline allocation used 
to ensure that every State receives sufficient first responder funding 
by two thirds.
    I agree with the President that more first responder funding should 
be distributed based on risk and threat. It probably also makes sense 
to begin distributing more of this funding directly to urban areas, 
particularly the large urban areas such as New York, Washington, Los 
Angeles, and Chicago that are probably most at risk. I would draw the 
line, however, at reducing the baseline in the State grant program so 
dramatically. Doing so at this point could put some States in great 
danger.
    I admit that the current State grant formula could be improved. 
After each State receives its baseline allocation, the current formula 
distributes all remaining funds to each State based on population. 
While population is one part of what puts a State at risk of attack, 
this formula ignores other important risk factors such as population 
density and the location of critical infrastructure. I've also argued 
in the past that it probably also shortchanges States like Delaware 
that have smaller populations but potentially significant risk factors.
    Chairman Collins and I and a number of our colleagues on this 
Committee have worked over the years to make our first responder aid 
programs work better. Our proposed, featured in S. 21, legislation we 
introduced earlier this year, mandates a State grant formula that would 
distribute about 60 percent of State grant funding based on risk. It 
also allows the Department of Homeland Security to award up to 25 
percent of State funding to high-risk urban areas. However, it 
maintains the current baseline allocation so that States like Delaware 
will continue to receive the resources necessary to protect their 
population and respond to potential terrorist attacks and natural 
disasters even if they aren't home to a large city and aren't deemed 
eligible for a risk-based allocation.
    If the President's proposal were enacted, Delaware would lose a 
significant amount of money. We were allocated $15 million in the 
current fiscal year. Under the President's proposal, we would likely 
only receive just over $2.5 million. This is unacceptable and dangerous 
because my State emergency management agency tells me that they don't 
have the resources and personnel necessary to handle certain attacks 
that the Department of Homeland Security has told them have a very real 
chance of occurring right now in Delaware.
    They also tell me that, if our State's allocation were to be cut as 
dramatically as the President's budget proposes, they might need to cut 
or eliminate funding for other important non-homeland security 
programs, including disaster mitigation efforts. Compare this with the 
fact that, under the President's proposal, large States with large 
cities will likely receive three layers of funds--a baseline 
allocation, a threat-based allocation and urban area grants.
    I also believe the President's proposal is dangerous because I 
haven't yet been convinced that the Department of Homeland Security can 
truly know what level of funding should be allocated to large States, 
small States or urban areas. This Committee recently heard testimony 
from one of the authors of a report published by the Heritage 
Foundation and the Center for Strategic and International Studies 
stating that the Department hasn't completed a comprehensive national 
risk assessment and doesn't plan to have one completed until 2008.
    I'd urge you, then, Mr. Secretary, to work with us to develop a 
SHSGP formula that treats all States fairly and doesn't run the risk of 
putting some at tremendous risk of being ill-prepared for an emergency.

    Senator Carper. Secretary Chertoff, again, it is good to 
see you.
    Secretary Chertoff. Thank you very much.
    Senator Carper. Thank you, Madam Chairman. How is that?
    Chairman Collins. That was good. Seriously, if you would 
like to ask further questions--I guess that did work.
    Senator Lieberman. Senator Collins and I have an ongoing 
discussion about the effectiveness of guilt induction. 
[Laughter.]
    Apparently it worked with Senator Carper.
    Chairman Collins. Mr. Secretary, thank you so much for 
being here today. We obviously had a great deal of discussion 
on the best way to allocate homeland security grant funding, 
and I want to leave you with some sound advice from the RAND 
Corporation report on this issue. It says, ``Homeland security 
experts and first responders have cautioned against an 
overemphasis on improving the preparedness of large cities to 
the exclusion of smaller communities or rural areas, noting 
that much of our critical infrastructure and some potential 
high-value targets--nuclear power plants, military 
installations, agricultural facilities, etc.--are located in 
less populated areas.''
    I think that is good advice for the Department, and I hope 
you will heed it.
    We appreciate the opportunity to question you today. The 
hearing record will remain open for additional comments for 15 
days.
    Secretary Chertoff. I appreciate that, Chairman Collins, 
and I look forward to working with the Committee. I have one 
slight correction, if I can have a second. The 2006 budget 
contemplates 143 ICE agents, not 135.
    Chairman Collins. You were very close.
    Secretary Chertoff. I was close.
    Chairman Collins. Thank you.
    Secretary Chertoff. I look forward to working with you. 
Thank you very much.
    Chairman Collins. This hearing is now adjourned.
    [Whereupon, at 11:44 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0175.001

[GRAPHIC] [TIFF OMITTED] T0175.002

[GRAPHIC] [TIFF OMITTED] T0175.003

[GRAPHIC] [TIFF OMITTED] T0175.004

[GRAPHIC] [TIFF OMITTED] T0175.005

[GRAPHIC] [TIFF OMITTED] T0175.006

[GRAPHIC] [TIFF OMITTED] T0175.007

[GRAPHIC] [TIFF OMITTED] T0175.008

[GRAPHIC] [TIFF OMITTED] T0175.009

[GRAPHIC] [TIFF OMITTED] T0175.010

[GRAPHIC] [TIFF OMITTED] T0175.011

[GRAPHIC] [TIFF OMITTED] T0175.012

[GRAPHIC] [TIFF OMITTED] T0175.013

[GRAPHIC] [TIFF OMITTED] T0175.014

[GRAPHIC] [TIFF OMITTED] T0175.015

[GRAPHIC] [TIFF OMITTED] T0175.016

[GRAPHIC] [TIFF OMITTED] T0175.017

[GRAPHIC] [TIFF OMITTED] T0175.018

[GRAPHIC] [TIFF OMITTED] T0175.019

[GRAPHIC] [TIFF OMITTED] T0175.020

[GRAPHIC] [TIFF OMITTED] T0175.021

[GRAPHIC] [TIFF OMITTED] T0175.022

[GRAPHIC] [TIFF OMITTED] T0175.023

[GRAPHIC] [TIFF OMITTED] T0175.024

[GRAPHIC] [TIFF OMITTED] T0175.025

[GRAPHIC] [TIFF OMITTED] T0175.026

[GRAPHIC] [TIFF OMITTED] T0175.027

[GRAPHIC] [TIFF OMITTED] T0175.028

[GRAPHIC] [TIFF OMITTED] T0175.029

[GRAPHIC] [TIFF OMITTED] T0175.030

[GRAPHIC] [TIFF OMITTED] T0175.031

[GRAPHIC] [TIFF OMITTED] T0175.032

[GRAPHIC] [TIFF OMITTED] T0175.033

[GRAPHIC] [TIFF OMITTED] T0175.034

[GRAPHIC] [TIFF OMITTED] T0175.035

[GRAPHIC] [TIFF OMITTED] T0175.036

[GRAPHIC] [TIFF OMITTED] T0175.037

[GRAPHIC] [TIFF OMITTED] T0175.038

[GRAPHIC] [TIFF OMITTED] T0175.039

[GRAPHIC] [TIFF OMITTED] T0175.040

[GRAPHIC] [TIFF OMITTED] T0175.041

[GRAPHIC] [TIFF OMITTED] T0175.042

[GRAPHIC] [TIFF OMITTED] T0175.043

[GRAPHIC] [TIFF OMITTED] T0175.044

[GRAPHIC] [TIFF OMITTED] T0175.045

[GRAPHIC] [TIFF OMITTED] T0175.046

[GRAPHIC] [TIFF OMITTED] T0175.047

                                 <all>

</pre></body></html>
